audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Carlisle, South Carolina, Police Department
GR-40-99-015	
September, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the Carlisle, South Carolina, Police Department (grantee).  The grantee received a $180,387 grant, No. 96-UM-WX-0145, under the Universal Hiring Program (UHP) to hire three officers, and a $14,308 grant, No. 97-CM-WX-1192, under the Making Officers Redeployment Effective (MORE) program to redeploy 0.8 full-time equivalent (FTE).  The purpose of the additional officers is to enhance community policing efforts.

	In brief, our audit determined the grantee:

did not maintain time and attendance records for its UHP funded officers from July 1, 1996 to February 28, 1997.  We question $7,728 in associated salaries and fringe benefits as unsupported.

	did not track the redeployment of officers under the MORE grant.  We question $12,737 in associated salaries and fringe benefits as unsupported.

	had not developed a plan to retain the grant-funded positions after the grant expires.

	did not enhance community policing efforts as described in its application.  

These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.